No. 20-1043
_____________
IN THE
SUPREME COURT OF THE UNITED STATES

UNITED STATES OF AMERICA,

Petitioner,
v.
MIGUEL ANGEL CANO,

Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

MOTION TO PROCEED IN FORMA PAUPERIS

Jeffrey L. Fisher
STANFORD LAW SCHOOL
SUPREME COURT LITIGATION
CLINIC
559 Nathan Abbott Way
Stanford, CA 94305

Harini P. Raghupathi

Counsel of Record

FEDERAL DEFENDERS OF
SAN DIEGO, INC.
225 Broadway, Suite 900
San Diego, CA 92101
(619) 234-8467
Harini_Raghupathi@fd.org

MOTION TO PROCEED IN FORMA PAUPERIS
Pursuant to the Criminal Justice Act, 18 U.S.C. § 3006A, and Supreme
Court Rule 39, respondent Miguel Angel Cano asks for leave to file an
Opposition to the United States’ Petition for Writ of Certiorari without prepayment of fees or costs and to proceed in forma pauperis. Respondent was
represented by counsel appointed pursuant to 18 U.S.C. § 3006A in the
United States District Court for the Southern District of California and on
appeal to the United States Court of Appeals for the Ninth Circuit.
CONCLUSION
For the foregoing reasons, the motion to proceed in forma pauperis should
be granted.
Respectfully submitted,
Jeffrey L. Fisher
STANFORD LAW SCHOOL
SUPREME COURT LITIGATION
CLINIC
559 Nathan Abbott Way
Stanford, CA 94305

Dated: May 12, 2021

Harini P. Raghupathi

Counsel of Record

FEDERAL DEFENDERS OF
SAN DIEGO, INC.
225 Broadway, Suite 900
San Diego, CA 92101
(619) 234-8467
Harini_Raghupathi@fd.org

